IN THE
SUPREME COURT OF THE UNITED STATES
No.

EMEM UFOT UDOH,
Petitioner,
vs.
UNITED STATES DISTRICT COURT, District of Minnesota,
Respondent.
CERTIFICATE OF SERVICE
On March 8. 2021. Petitioner hereby certify that a copy of the following documents:
1. Motion For Leave To Proceed In Forma Pauperis;
2. Petition for a Writ of Certiorari; and
3. Appendix.
was served upon the Clerk of the United States Supreme Court, properly addressed to:
Clerk’s Office
United States Supreme Court
One First Street North East,
Washington, D.C. 20543,
and to the SOLICITOR GENERAL Of The United States, U.S. Department of Justice
MONTY WILKINSON
Acting Attorney General of the United
States
SHAHRZAD BAGHAI
U.S. Department of Justice
Civil Division, OIL
P.O. Box 878, Ben Franklin Station
Washington, D.C. 20044

SOLICITOR GENERAL Of The United States
U.S. Department of Justice
Room 5616
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

pgc@^°
and on every other person required to be served by U.S. Mail as follows:

MR' 1

CLERK OF EIGHTH CIRCUIT
COURTS OF APPEALS
Thomas F. Eagleton U.S. Courthouse
111 South Tenth Street, Suite 24.329
St. Louis, MO 63102

HONORABLE CHIEF JUDGE
United States District Court
District of Minnesota
300 South Fourth Street, Suite 202
Minneapolis, MN 55415

KEITH ELLISON
Minnesota Attorney General
1400 Bremer Tower
445 Minnesota Street
St. Paul, MN 55101

MICHAEL O. FREEMAN
Hennepin County Attorney
KELLY O’NEILL MOLLER
JONATHAN P. SCHMIDT
Hennepin County Attorney
C-2000 Government Center
300 South Sixth Street
Minneapolis, MN 55487

HONORABLE PAUL A. MAGNUSON

BECKY DOOLEY
WARDEN OF MOOSE LAKE PRISON
MCF - Moose Lake
1000 Lake Shore Drive
Moose Lake, MN 55069

United States District Court Judge
District of Minnesota
300 South Fourth Street, Suite 202
Minneapolis, MN 55415

HONORABLE HILDY BOWBEER
United States Magistrate Court Judge
District of Minnesota
300 South Fourth Street, Suite 202
Minneapolis, MN 55415

CLERK OF U.S. DISTRICT COURT
United States District Court Judge
District of Minnesota, Clerk Office
300 South Fourth Street, Suite 202
Minneapolis, MN 55415

The undersigned declares under penalty of perjury that the information contained therein is true
and correct. Minn. Stat. §358.116, 28 U.S.C §1746, 18 U.S.C §1621.

Dated: March 8. 2021

Respectfully Submitted,

U
Emem U. Udoh, 245042
Pro se Litigant,
7600 525™ Street
Rush City, MN 55069

